No.

20°703

l

3fn ®fjc Supreme Court for tfje fintfeb States of America

filed
NOV 14 2020
LS^i.lFrMfflag< f

William Kinney Jr.,
Julie Ann Metcalf Kinney,
William X Nietzche,
Petitioners,
v.
URBAN HOUSING DEVELOPMENT LLC,
U.S. BANK NA (As trustee for securitized trust
HSBC Trust HSBC Home Equity Loan Trust
2005-1 Trust,
Respondent,

On Petition for Review to the Oregon Supreme Court

PETITION FOR WRIT OF CERTIORARI

William Kinney Jr
Julie Ann Metcalf Kinney
William X Nietzche
c/o 4406 N Mississippi Ave
Portland, Oregon [97217]
(503)-539-3784
Petitioners Sui Juris [Pro SeJ

Received
NOV 1 8 2020

1

QUESTIONS PRESENTED
1. This Court often emphasizes the importance of
preserving the public’s trust in the legal
system. But over the past decade, courts have
left the public and homeowners with
questionable decisions and actions that have
marred the system. Unfortunately, millions
harmed are average American’s, their families
and friends. Every American has been affected,
as these outcomes have had a lasting negative
effect on the economy and wealth, including
record poverty, homelessness, health care costs,
low wage jobs and government assistance,
while infringing on Constitutional Rights.
Herein, there are numerous questionable
issues by the courts and others in favor of the
numerous banks and lenders in this case,
particularly HSBC Pic, Mortgage Electronic
Registration Systems (MERS), the
government’s interest in MERS, and U.S. Bank
NA, the alleged note owner. This case raises
important issues over the government’s direct
financial interest in trillions of dollars’ in
taxpayer backed mortgages, FNMA as de facto
State actor, national banks, mortgage
securitization (RMBS), default insurance
(CDSs and CDOs), Constitutional property
rights, foreclosure and modification fraud,
standing and void judgements in need of
addressing. This case raises questions of
Constitutionality of Oregon law that infringes
on Due Process under Amendment V. Thus, the
questions presented are:

.^-

11

1). Whether the Multnomah County Trial
Court is without jurisdiction to Adjudicate the
Defected Inferior FED action because of the
Original jurisdiction of Petitioner’s Verified
Federal Complaint?
2). Whether or not Respondents Should be
Allowed to Proceed with FED Action when
Respondent UHD’s Proper Remedy was an
Action for Ejectment Under ORS 105.001?
3). Whether a Supersedeas Undertaking
Requirement of the Value of “Use and
Occupation” Should Be Equivalated to the Rate
of the Purported Last Monthly Mortgage
Invoice Statement?
4). Whether or Not it is Error for Respondent
Multnomah County Trial Court to Rely Upon a
Res Judicata Opinion of Dismissal of Counter­
claims based Upon Dismissal of Petitioner’s
Federal Complaint?
PARTIES TO THE PROCEEDING
2. Petitioners, William Kinney Jr, Julie Metcalf
Kinney and William X Nietzche were Plaintiffs
in the U.S. District Court; Petitioners, William
Kinney Jr, Julie Metcalf Kinney were
Defendants in the Multnomah County Circuit
Court of the State of Oregon, as well as
Counter-plaintiffs in said case with Petitioner
William X Nietzche as Third-party Intervenor;
Said Petitioners are appellants both in the U.S.

111

Court of Appeals for the Ninth Circuit, No. 1935876, and the Court of Appeals for the State of
Oregon, No. A174061.
3. Respondent, U.S. Bank NA was a party
throughout litigation. U.S. Bank is alleged to
have exclusive interest in the 2004 DOT.
4. Respondent Urban Housing Development was
a party throughout the litigations. UHD is the
purported purchaser of the Kinney’s home at
the non-judicial foreclosure auction.
RULE 29.6 STATEMENT
5. None of the petitioners is a nongovernmental
corporation, has a parent corporation or shares
held by a publicly traded company.
TABLE OF CONTENTS
Page(s)
QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDING

ii

RULE 29.6 STATEMENT
TABLE OF AUTHORITIES

in

v

PETITION FOR A WRIT OF CERTIORARI.... 1
DECISIONS BELOW.

1

JURISDICTION.

2

IV

CONSTITUTIONAL, STATUATORY &
RULING PROVISIONS INVOLVED.....

2

INTRODUCTION

3

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT.......14
I. This Court Should Grant Certiorari To
Determine Whether the Multnomah County
Trial Court was without jurisdiction to
Adjudicate the Defected Inferior FED action
because of the Original jurisdiction of
Appellant’s Verified Federal
Complaint?............................................................ 16
II. This Court Should Grant Certiorari To
Address Whether Respondents Should be
Allowed to Proceed with FED Action when
Respondent UHD’s Proper Remedy was an
Action for Ejectment Under ORS
105.001?..............................................................

19

III. This Court Should Grant Certiorari to
Determine Whether a Supersedeas
Undertaking Requirement of the Value of “Use
and Occupation” Should Be Equivalated to the
Rate of the Purported Last Monthly Mortgage
Invoice Statement?
21
IV. This Court Should Grant Certiorari To
Address Whether it is Error for

V

Respondent Multnomah County Trial Court to
Rely Upon a Res Judicata Opinion of Dismissal
of Counter-claims based Upon Dismissal of
22
Petitioner’s Federal Complaint?
CONCLUSION

23

APPENDIX
Dismissal Order, Oregon Supreme Court,
October 28th, 2020
•App. 1
Dismissal Order, Oregon Court of Appeals,
September 29th, 2020
App. 2
Dismissal Order, Oregon Court of Appeals,
August 25th, 2020
App. 3
Order Re Supersedeas Undertaking,
Multnomah County Circuit Court,
July 7th, 2020........................................

App. 4

Dismissal Order, Multnomah County Circuit
Court, May 19th, 2020
App. 5
Dismissal Order, U.S. District Court,
October 8th, 2019...................................

App. 6

TABLE OF AUTHORITIES
CASES
Page(s)
KPMG LLP v. Cocchi,
565 U.S. 18, 19 (2011) (per curiam)

2

VI

Mansfield, C. & L. M. R. Co. v. Swan,
lii U.S. 379, 382 (1884)..........................

3

Steel Co. v. Citizens for Better Environment,
523 U.S. 83, at 94 (1998)..................................... 4
Ruhrgas AG v. Marathon Oil Co. et al.,
526 U.S. 574 (1999)...................................

4

LIG Investments v. Roach,
215 Or. App 210, 214 (2007)

15,19,20

Princess Lida v. Thompson,
305 U.S. 456, 466 (1939).....

17,18,19

United States v. $270,000 in United States
Currency, Plus Interest,
I F.3d 1146, 1147-48 (11th Cir. 1993)..........

18

Penn Gen. Casuality Co. v. Commonwealth,
294 U.S. 189, 195 (1935)................................... 18
Cassity v. Pitts,
995 F. 2d 1009, 1012 (10th Cir. 1993)

18

Scarabin v. Drug Enforcement Admin.,
966 F.2d 989, 995 (5th Cir. 1992)...........

18

Dailey v. National Hockey League,
987 F. 2d 172, 175 (3d Cir. 1993)...

18

Selton v. U.S. Bank Trust Nat. Assn.,

Vll

SD, No. 6:14-cv-1278-ORL-37KRS, 2015 WL
4987706, *4, 2015 U.S. Dist. LEXIS 109487
(M.D. Fla. August 19, 2015).............................. 18
Cartwright v. Garner,
751 F. 3d 752, 761 (6th Cir. 2014)

19

Bunch v. Pearson,
186 Or App 138, 142, 62 P3d 878, rev den, 335
Or 422 (2003)
19
Deutsche Bank Nat'l Tr. Co. as Tr. for GSAA
Home Equity Tr. 2006-18 v. Cornish,
759 F. App'x 503, 504 (7th Cir. 2019)............... 21
CONSTITUTIONAL AND STATUATORY
PROVISIONS
Treaty of Peace and Friendship (1786).......
U.S. Const, amend. V, cl. 3 & 4,

2

2,15,23

U.S. Const. Article 1 § 9, cl. 2

2

U.S. Const. Article III, § 2, cl. 1

2

U.S. Const. Article VI, cl. 2

3,17

28 USC § 2101

2

28 U.S.C. § 1257(a)

2

28 U.S.C. § 1345

3

VIII

ORS 86.735

14

ORS 105.005

19,20

ORS 105.110

20

RULES
Fed. R.Civ.P. 62

21

Fed. R. App. P. 8

21

U.S. Sup Crt Rule 13
OTHER AUTHORITIES
First-to-File Rule...........

2

17

Abraham Lincoln, [Sept. 16-17, 18591 (Notes
for Speech in Kansas and Ohio), Page 2......... 4

1.
PETITION FOR A WRIT OF CERTIORARI
6. William Kinney Jr., Julie Metcalf Kinney, and
William X Nietzche, a Moorish People of the
Americas, in proper persona sui juris,
respectfully petitions the court of record for a
Writ of Certiorari to review the order of the
Oregon Supreme Court.
DECISIONS BELOW
7. The unpublished order of the Oregon Supreme
Court, No. S068071, denying review was filed
on October 28, 2020 (App. 1); the nonopinioned
decision of the Oregon Court of Appeals, No.
A174061, denying reconsideration was filed on
September 29, 2020 (App. 2); the nonopinioned
decision of the Oregon Court of Appeals, No.
Al 74061, denying review of the trial court
order relating to supersedeas undertaking was
filed on August 25, 2020 (App. 3); the decision
of Multnomah County Circuit Court, No.
18LT16339, relating to supersedes undertaking
was filed July 7, 2020 (App. 4); the decision of
Multnomah County Circuit Court, No.
18LT16339 dismissing with prejudice
Petitioner’s verified counter-claims was filed
May 19, 2020 (App. 5); and the decision of the
U.S. District Court, No. 3:18-cv-01930,
dismissing with prejudice Petitioner’s verified
complaint was filed October 8, 2019 (App. 6)
are attached hereto.

2.
JURISDICTION
8. The non-opinioned order denying Review by
the Oregon Supreme Court was entered on
October 28th, 2020. The non-opinioned order of
the Oregon Court of Appeals denying
reconsideration was entered on September
30th, 2020. This petition is timely because
made within 90 days of the Oregon Supreme
Court Chief Justice Martha L. Walters’ October
28, 2020, Order denying Review and Motions
for Stays and Temporary Injunction.
9. This Court's jurisdiction rests on the Treaty of
Peace and Friendship (1786); the Constitution
for the United States of America (1791), Article
1, Section 9, Clause 2 and Article 3, Section 2;
28 USC § 2101; U.S. Supreme Court Rule 13;
28 U.S.C. § 1257(a), "the highest court of [the]
State in which a decision could be had." See,
e.g., KPMG LLP v. Cocchi, 565 U.S. 18, 19 (20
11) (per curiam).
CONSTITUTIONAL, STATUATORY &
RULING PROVISIONS INVOLVED
10. U.S. Const, amend. V, cl. 3 & 4, state: "...nor be
deprived of life, liberty, or property, without
due process of law; nor shall private property
be taken for public use, without just
compensation."
11. U.S. Const. Article III, § 2, cl. 1: "The judicial
Power shall extend to all Cases, in Law and
Equity, arising under this Constitution, the

3.
Laws of the United States, and Treaties made,
or which shall be made, under their
Authority.., to Controversies to which the
United States shall be a Party...". Concurring,
28 U.S.C. § 1345 states: "the district courts
shall have original jurisdiction of all civil
actions, suits or proceedings commenced by the
United States, or by any agency or officer
thereof expressly authorized to sue by Act of
Congress." (June 25, 1948, ch. 646, 62 Stat.
933.).
12.U.S. Const. Art. VI, cl. 2: "This Constitution,
and the Laws of the United States which shall
be made in Pursuance thereof; and all Treaties
made, or which shall be made, under the
Authority of the United States, shall be the
supreme Law of the Land; and the Judges in
every State shall be bound thereby, any Thing
in the Constitution or Laws of any State to the
Contrary notwithstanding."
INTRODUCTION
13. The most essential cog of justice is jurisdiction,
the essence of a Courts power to adjudicate,
and in lack thereof no Court action can be
valid. See Mansfield, C. & L. M. R. Co. v. Swan,
lii U.S. 379, 382 (1884) "The requirement that
jurisdiction be established as a threshold
matter is 'inflexible and without exception,' ";
for "jurisdiction is power to declare the law,"
and 'without jurisdiction the court cannot

4.
proceed at all in any cause, t If Steel Co. v.
Citizens for Better Environment, 523 U.S. 83,
at 94 (1998); Ruhrgas AG v. Marathon Oil Co.
et al., 526 U.S. 574 (1999).
14. The US Constitution has long governed and
asserted the importance of Due Process and
fair legal proceedings as essential to our
system of justice. Moreover, the same revered
document outlines the necessary rights granted
unto the people to protect against those who
attempt to pervert it, including entrusted
corporations and the government.1 A nagging
issue compounding post Financial Crisis, is the
vast number of Americans that have been and
continue to be affected by the foreclosure crisis.
The crisis transferred billions of wealth from
the people into the coffers of entrusted banks
like U.S. Bank NA and to the US Government
through its seizure of FNMA. Many of the
foreclosures that created the record poverty
and homelessness, were wrongful and violated
Constitutional rights, Federal law, long-held
state High Court rulings and the direction of
this Court. Systemic failures at standing, by
improperly bringing many of these foreclosures
in the wrong venue, corrupted Chain of Title
through securitization, wrongful
rehypothecation, and unlawful third-party
1 "...The people - the people - are the rightful masters of both
Congresses, and courts - not to overthrow the Constitution, but
to overthrow the men who pervert it—". Abraham Lincoln, [Sept.
16-17, 18591 (Notes for Speech in Kansas and Ohio), Page 2.

5.
proceedings, are vital issues to proper
adjudication of millions of cases, past, current
and future. Many foreclosures involved blatant
failures of government mandated modification
publicly scorned by some Courts and ex­
government officials. Tactics utilized are eerily
similar across countless victims' stories and
complaints defining the schemes. Ethics are
lost for taking advantage of Americans when
financially vulnerable, creating a situation
impossible to overcome and eventually fall
susceptible to misrepresentations procuring
countless profitable securitizations,
rehypothecations and defaults.
15.U.S. Bank NA and other national banks have
been regularly utilizing federal preemption
privileges to avoid victims claims but continue
to wrongfully bring mass foreclosures in those
same state venues. Some state officials and
courts turned a blind eye to the facts and
wrongdoings, and allowed U.S. Bank NA, other
foreign banks, MERS and FNMA to wrongfully
obtain millions of properties through fraud. In
Florida, the infamous Rocket Docket fostered
countless wrongful proceedings and Due
Process failures with judges closing hundreds
of cases per day while violating homeowners
Constitutional Rights. A Broward foreclosure
judge was noted for dosing around 786 cases in
one day. Due Process? Courts have allowed
U.S. Bank NA to go unpunished for too long.
U.S. Bank NA's multiple record Billion-dollar

6.
regulatory settlements, demand greater
attention by Courts to the numerous victims'
claims and to remove the hiccups and legal
speedbumps utilized to deter justice, including
within this case.
16. This Court is the ultimate adjudicator for the
people and the Constitution, and this case
presents the ideal opportunity to address these
issues that have continued to plague
Americans and the justice system for over a
decade. The law must not rule on the impact or
fallout from millions of improper and void
judgements, it must focus on the facts and the
millions of victims whose Constitutional rights
have been violated.
STATEMENT OF THE CASE
17. On November 5, 2018, Petitioner’s originally
commenced this action in the U.S. District
Court case #3:18-cv-01930 by filing a Verified
Complaint seeking specific performance on the
Deed of Trust, damages for breach of contract,
various state and federal statutory violations,
and injunctive relief.
18. Two weeks later, Respondents commenced an
inferior Forcible Eviction Detainer (FED)
action in the Multnomah County Court
case#18LT16339.

7.
19. As further described in the Verified Counter­
claim, in May 2002, Petitioners William and
Julie Kinney (The Kinney’s) fell victim to its
first predatory loan after the Kinney’s eldest
teenage son at the time was incarcerated for
traffic-related offenses in February 2002.
20. The Kinney’s, in order to afford legal
representation for their son, executed its first
(1st) mortgage Deed of Trust in favor of
Defendant Freedom Mortgage Corporation
(FMC).
21. In March 2004, Petitioners, under extreme
duress from an ‘upward adjustable rate rider’
in their first loan, coupled with the
incarceration of their teenage son, received a
solicitation call from Beneficial Oregon
Incorporated (BOI) wherein Plaintiffs fell
victim to another predatory refinancing
agreement, therewith executing a second (2nd)
mortgage Deed of Trust with BOI.
22. Prior to this, at some point during the period of
May 2002 through March 2004, FMC had
assigned its beneficial interest to Mortgage
Electronic Recording Systems (MERS), without
notice or knowledge to Petitioners, and without
making the proper recordation in the mortgage
records at the county level.

8.
23.MERS then assigned FMC’s beneficial interest
to George P. Fisher, Successor Trustee acting
on behalf of BOI.
24. The Kinney’s remained in compliance with the
second (2nd) mortgage Deed of Trust until
about January 2017, where the Kinney’s
received billing cycles from two separate
servicers, HSBC - whom is the parent company
of BOI - and Rushmore Loan Management
Services (RLMS).
25. The Kinney’s then began its onslaught of
written discovery request to determine which
servicer was entitled to enforce the Note.
26. Subsequently, the Note goes through a series of
assignments, eventually ending up with U.S.
Bank REO Trust (USBT). In June 2018, Clear
Recon Trust and RLMS inexplicably declared a
default and initiated a non-judicial foreclosure
proceeding that took place October 23, 2018,
wherein Defendant Urban Housing
Development (LTHD) purportedly bought the
Kinney’s property.
27. During the course of Petitioners federal
litigation, Petitioners joined to its federal
Verified Complaint Roman Ozeruga (owner of
UHD), Mark G. Passannante (UHD’s state
counsel) and Terrance Slominski (UHD’s
federal counsel) for their co-conspiratorial
collusion in igniting the inferior state court

9.
FED action two weeks after being served with
Petitioner’s Verified Federal Complaint.
28. Petitioners fended off UHD’s first unlawful
attempt in Multnomah County FED Court by
filing several Notice of Removals wherein
purported Multnomah County Judge Stephen
Bushong divested himself of jurisdiction
erroneously ruling that Petitioners successfully
stayed state court proceedings removing
jurisdiction to federal court by Petitioners filing
their Verified Federal Complaint on November
5, 2018.
29. On or about December 9, 2018, purported
federal judge Michael H. Simon later affirmed
(in an order denying Petitioners application for
a Temporary Restraining Order) that
Petitioners had original jurisdiction and not
removal jurisdiction by the filing of their
Verified Federal Complaint.
30. In said order denying TRO, purported federal
judge Michael H. Simon trespassed on the case
by erroneously ruling that MERS’ involvement
in the Kinney’s chain of title was a mere
“scrivenor’s error.”
31. On or about September 24, 2019, Petitioners
served Respondent U.S. Bank National
Association’s attorney Tom Purcell with a
subpoena duces tecum demanding production
of the purported 2004 original mortgage note

10.
and deed of trust wherein the next day
attorney Tom Purcell wrote a desperation
emergency email to purported federal judge
Michael H. Simon, along with stringing
Petitioners and approximately sixteen other
attorneys in the same email, explaining being
served with said subpoena by Petitioner
Nietzche.
32. On September 26, 2019, purported federal
judge Michael H. Simon further trespassed
upon Petitioners case by convening an
emergency hearing against Petitioners’
objection whereby ruling that Petitioners’
subpoena served upon Tom Purcell was
quashed and halting any further discovery or
filings in said case pending purported federal
judge Michael H. Simon catching up with all
the previous filings in the case.
33. Petitioners moved the court to join purported
federal judge Michael H. Simon whereby Simon
denied said motion.
34. Subsequently, on October 8, 2019, purported
federal judge Michael H. Simon dismissed all of
Petitioners verified federal claims with
prejudice.
35. On October 15, 2020, Respondent UHD then
re-ignited its defected inferior state court FED
action against Petitioners wherein Petitioners
filed a Verified Counter-claim.

11.
36. Purported judge Matarazzo was then appointed
trial judge in which Petitioners attempted to
recuse several times.
37. On February 26, 2020, Petitioner William X
Nietzche appeared in special restricted
appearance at an un-scheduled hearing
wherein Matarazzo converted said hearing into
a trial-by-surprise with Petitioners.William
and Julie Kinney in absentia.
38. Matarazzo relied upon Simon’s dismissal of
Petitioner’s Verified Federal Complaint as res
judicata whereby awarding possession of the
subject property structure to Respondent UHD.
39. On May 19, 2020, Judith Matarazzo signed off
on a General Judgement awarding possession
of the subject property structure to Respondent
UHD.
40. On May 25, 2020, Petitioners filed its
supersedeas undertaking in the amount of
$260,000, agreeing to pay $1000 per month,
plus promising not to commit waste upon the
subject property structure.
41. Respondent UHD objected to the form of
Petitioners supersedeas bond arguing that
Petitioners should pay $2400 per month and a
$10,000 waste bond.

12.
42.Matarazzo granted Petitioners a stay
predicated upon Petitioners paying into the
court as security $1600 per month plus a
$10,000 waste bond by August 2, 2020.
43. On July 20, 2020, Petitioners filed in the
Oregon Court of Appeals its Motion for Review
of Trial Court’s Order Relating to Supersedeas
Undertaking wherein an automatic fourteen
(14) day stay was issued until August 5, 2020.
44. On August 12, 2020, Matarazzo signed a writ of
execution ordering Multnomah County Sheriffs
to remove Petitioners from the subject property
structure.
45. On August 25, 2020, the Appellate Court
Commissioner denied Petitioner’s Motion for
Review of Trial Court’s Order Relating to
Supersedeas Undertaking upholding the Trial
court’s initial order.
46. On September 8, 2020, Petitioners filed its
Motion for Reconsideration of the Appellate
Commissioners decision on Appellant’s Motion
for Review of Trial Court’s Order Relating to
Supersedeas Undertaking.
47. On September 9, 2020, Multnomah County
Sheriffs removed Petitioners at gunpoint from
the subject property structure.

13.
48. On September 11, 2020, Petitioners filed with
Multnomah County Court its Emergency Ex
Parte Motion for Relief from Order Revoking
Supersedeas Undertaking.
49. On September 16, 2020, Petitioners appeared
by special and restricted appearance in front of
Multnomah County judge Mark A. Peterson
wherein Peterson denied Appellant’s
Emergency Ex Parte Motion for Relief from
Order Revoking Supersedeas Undertaking and
ruling that UHD had an extension of fifteen
(15) days to re-issue a second writ of execution
to remove Petitioners from the subject property
structure as Respondent UHD admitted that
Petitioners still maintained adverse possession
of the subject property structure.
50. On September 23, 2020, Petitioners filed with
the Oregon Court of Appeals its Motion for
TRO and Temporary Injunction.
51. On September 24, 2020, Counter­
defendant/counsel for UHD Mark Passanante
motioned the trial court for an Ex Parte
hearing inquiring into the status of the second
(2nd) writ of execution.
52. The next day September 25, 2020, Petitioners
by special and restricted appearance and
Counter-defendant Passannante appeared in
front of purported Multnomah county judge
Mark A. Peterson wherein Mark A. Peterson

14.
refused to acknowledge Appellant’s Motion for
TRO and Temporary Injunction filed with
Oregon Court Appeals September 23, 2020, and
ruled that if Matarazzo would not sign the writ
of execution, then Peterson himself would.
53. On Sunday September 27, 2020, Matarazzo
signed off on the Second (2nd) Writ of Execution
to remove Petitioners from the subject property
structure.
54. On September 30, 2020, the Oregon Appellate
Court denied Appellant’s Motion for
Reconsideration and Appellant’s Motion for
TRO and Temporary Injunction.
55. On October 20, 2020, Petitioners filed with the
Oregon Supreme Court its Petition for Review.
56. On October 28, 2020, the Oregon Supreme
Court denied said Petition for Review.
REASONS FOR GRANTING THE WRIT
57. The questions presented have importance
beyond the Kinney case, because:
58. Portland, Oregon has the 4th highest number
of homeless people in the U.S.A.
59. ORS 86.735 which allows non-judicial
foreclosures in Oregon is unconstitutional. To
allow non-judicial foreclosures to continue in

15.
Oregon deprives the people of their property
without due process of law infringing the
People’s 5th Amendment secured right to a jury
trial; and it also perpetuates the problem of
homelessness, allowing lenders and developers
to escheat the Peoples property without due
process of law and/or any judicial oversight.
60.In reference to the question regarding
supersedeas undertaking, the Oregon Court of
Appeals in LIG was uncertain as to whether a
supersedeas undertaking, which particularly
applies to the FED context, can be reasonably
applied to the mortgage/foreclosure context,
which involves a dispute to title and
possession. To allow purported lenders to
convert its monthly mortgage payments into
monthly projected rents during an expected
appeal where said mortgage is still in dispute,
works an injustice to the homeowners and
deserves resolve by the Supreme Court.
61. The Court should therefore grant this petition
to address these serious issues, along with the
multiple frauds committed in this case, and to
correct wrongful precedent set by national
Courts, including the Oregon Court of Appeals
and the Oregon Supreme Court's non-opinioned
order, for past, present and future generations.

16.
LEGAL QUESTION(S) PRESENTED
I. This Court Should Grant Certiorari to
address whether the Multnomah County
Trial Court was without jurisdiction to
Adjudicate the Defected Inferior FED
action because of the Original jurisdiction
of Appellant’s Verified Federal
Complaint?
62. Appellants were first-to-file its Verified Federal
Complaint on November 5, 2018, regarding the
same property structure;
63. wherein Defendant UHD received service of
said complaint on November 8, 2018.
64. On November 19, 2018, Respondent UHD filed
its inferior FED action in the Multnomah
County Circuit court (case#18LT16339).
65.The Multnomah County Trial court is without
jurisdiction to adjudicate the defected inferior
FED action because of the Original jurisdiction
of Appellant’s Verified Federal Complaint.
66. Said inferior State Trial Court abused its
discretion thus acting ultra-vires by continuing
to adjudicate the FED action despite federal
court’s Original Jurisdiction, and then
erroneously divesting itself of jurisdiction
based on Petitioner’s filing of its second (2nd)
Notice of Removal.

17.
67. Although the First-to-File Rule is a rule of
general acceptance amongst federal courts, said
inferior State Court FED action violates the
basic fundamentals of the first-to-file rule;
68. As well as infringes Article 6, Section 2, The
Supremacy Clause, of the Constitution for the
United States of America (1791) in which the
Princess Lida doctrine sprung.
69. The Princess Lida doctrine applies in this case:
[I]f...two suits are in rem, or quasi in
rem, so that court or its officer, has
possession or must have control of the
property which is the subject of the
litigation in order to proceed with the
cause and grant the relief sought the
jurisdiction of the one court must yield to
that of the other.
We have said that the principle
applicable to both federal and state
courts that the court first assuming
jurisdiction over property may maintain
and exercise that jurisdiction to the
exclusion of the other, is not restricted to
cases where property has been actually
seized under judicial process before a
second suit is instituted, but applies as
well where suits are brought to marshal
assets, administer trusts, or liquidate
estates, and in suits of a similar nature
where, to give effect to its jurisdiction,

18.
the court must control the property. See
Princess Lida v. Thompson, 305 U.S.
456, 466 (1939); See also United States
v. $270,000 in United States Currency,
Plus Interest, I F.3d 1146, 1147-48 (11th
Cir. 1993) (quoting Penn Gen. Casuality
Co. v. Commonwealth, 294 U.S. 189, 195
(1935)); See also Cassity v. Pitts, 995 F.
2d 1009, 1012 (10th Cir. 1993); Scarabin
v. Drug Enforcement Admin., 966 F.2d
989, 995 (5th Cir. 1992) (finding that an
initial state action regarding the
forfeiture of alleged drug proceeds had
priority over the federal agency’s
subsequent actions in federal court).
70. The Supreme Court ruled that the Common
Pleas Court of Pennsylvania was without
jurisdiction of the suit subsequently brought
for the same or similar relief, and that the
parties in that suit were properly enjoined from
pursuing it.
71. This principle, which has become known as the
“Princess Lida Doctrine”, has been applied
routinely throughout the country. See Dailey v.
National Hockey League, 987 F. 2d 172, 175
(3d Cir. 1993) (acknowledging the continuing
validity of the Princess Lida doctrine). In short,
“[t]he Princess Lida doctrine requires
abstention based upon principles of comity and
in rem jurisdiction.” Selton v. U.S. Bank Trust
Nat. Assn., SD, No. 6:14-cv-1278-ORL-37KRS,

. r.

19.
2015 WL 4987706, *4, 2015 U.S. Dist. LEXIS
109487 (M.D. Fla. August 19, 2015).
72. As indicated, the Princess Lida doctrine applies
equally to state and federal courts. See
Cartwright v. Garner, 751 F. 3d 752, 761 (6th
Cir. 2014) (“The principle that the court first
assuming jurisdiction over the property may
maintain and exercise that jurisdiction is
applicable to both state and federal courts.”).
73. Therefore, Respondent’s FED Action should be
dismissed with prejudice and said Final
Judgement rendered in relation thereto should
be declared null and void for want of
jurisdiction.
II. This Court Should Grant Certiorari to
address whether Respondents Should be
Allowed to Proceed with FED Action
when Respondent UHD’s Proper Remedy
was an Action for Ejectment Under ORS
105.005?
74. In LIG Investments v. Roach, 215 Or. App 210,
214 (2007), the court determined that, “in the
absence of the landlord-tenant relationship
between plaintiff and defendant, it is unclear
that a FED detainer action was the correct
mechanism for the gaining possession of real
property form a former owner.” (See Bunch v.
Pearson, 186 Or App 138, 142, 62 P3d 878, rev
den, 335 Or 422 (2003) (“unlawful holding by
force” requirement for forcible entry and

20.
detainer action refers only to the landlordtenant relationship).
75. In LIG, the Oregon Court of Appeals did
determine that the value of the use and
occupation of real property in a FED action is
the fair market rental value of the property;
76. However, the court was “unclear” whether that
standard was reasonably applied to a case
involving the mortgage/foreclosure context
where there exist no landlord/tenant
relationship between the parties.
77. As in this case where the dispute is in regards
to title and possession, the correct remedy for
Respondent UHD was an action for Ejectment
under ORS 105.005;
78. Instead, Respondent UHD pursued a FED
action under ORS 105.110;
79. Said procedural defect is fatal to Respondent’s
chances of winning on appeal.
80. The court shall clarify whether the
requirement of a supersedeas undertaking can
be reasonably applied in a mortgage/foreclosure
context when there exist no landlord/tenant
relationship between the parties.
81. Respondent’s position is that the value for “use
and occupation,” if applied in a

21.
mortgage/foreclosure context, shall be the
status quo ante as if Appellant’s mortgage were
still in effect;
III. This Court Should Grant Certiorari to
address Whether a Supersedeas
Undertaking Requirement of the Value of
“Use and Occupation” Should Be
Equivalated to the Rate of the Purported
Last Monthly Mortgage Invoice
Statement?
82. The 2018 amendments to the federal rules of
civil procedure (Rule 62) and appellate
procedure (Rule 8) indicate that “stays pending
appeal should be the norm in mortgage
foreclosure appeals.” Deutsche Bank Nat'l Tr.
Co. as Tr. for GSAA Home Equity Tr. 2006-18
v. Cornish, 759 F. App'x 503, 504 (7th Cir.
2019).
83. That is because (1) the lender has the real
property as the security it bargained for and (2)
residential borrowers suffer irreparable
damage during the appeal.
84. If said defected FED action is not deemed void
for want of jurisdiction, then, arguendo, the
“value of use and occupation” can only be
equivalated to the rate of the last purported
monthly mortgage invoice statement at the
time Petitioner’s initiated its original federal
lawsuit which is approximately $745.

22.
85. The fair market rental value for a culturally
diverse elderly couple who has traditionally
owned their home since 1955 and who has
survived gentrification and mass displacement
of over 10,000 less fortunate families in
North/North East Portland Oregon, is $745.
IV. This Court Should Grant Certiorari to
address Whether it is Error for
Respondent Multnomah County Trial
Court to Rely Upon a Res Judicata
Opinion of Dismissal of Counter-claims
based Upon Dismissal of Petitioner’s
Federal Complaint?
86. On October 9, 2019, a final judgment was
entered by the U.S. District Court dismissing
with prejudice Petitioners federal complaint
wherein on October 15, 2020, Petitioners filed
its timely notice of appeal to Ninth Circuit
wherein Petitioners are still yet to file its
opening brief.
87. Petitioners were deprived of their fundamental
right to a jury trial by said dismissal with
prejudice of their substantial verified claims
raised in their federal complaint.
88. It is error for Judith Matarazzo to rely on the
federal dismissal of Petitioner’s Verified federal
Complaint as a res judicata basis to dismiss
Petitioner’s verified counterclaim when
Petitioners have a pending federal appeal in
the Ninth Circuit on related issues.

23.

89. This deprives Petitioners of its substantial
right to a jury trial and due process to an
appeal as protected by the 5th Amendment to
the Constitution for the United States of
America 1791.
CONCLUSION
90. For all these reasons, the Court should grant
this petition.
I affirm the abovesaid to be true and correct under
penalties of perjury.

DATED this

ft7^

day of November, 2020.

J A
By
Julie Ann
/
lo Proprio, In Proper Persona,
eredgs, Sui Juri

By
Willia^n Kinney Jr
In Solo Proprio, In Proper Persona,
Sui Heredes, Sui Juris [Pro se]

u

A

By
/
William X Nietzche, as trustee
for KRME International Trust
In Solo Proprio, In Proper Persona,
Sui Heredes, Sui Juris [Pro se]

